Department of Homeland Security
   Ofﬁce of Inspector General

             Age Determination Practices for 

             Unaccompanied Alien Children 

                       - Update 





OIG-10-122                                   September 2010
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                        SeptemberSeptember
                                  29, 2010 27, 2010


MEMORANDUM FOR:               John T. Morton
                              Assistant Secretary
                              Immigration and Customs Enforcement

FROM:                         Richard L. Skinner
                              Inspector General

SUBJECT:                      Age Determination Practices for Unaccompanied Alien
                              Children – Update

Attached for your information is our final letter report, Age Determination Practices for
Unaccompanied Alien Children – Update. We incorporated ICE’s formal comments in
the report.

Consistent with our responsibility under the Inspector General Act, as amended, we are
providing copies of our report to appropriate congressional committees with oversight
and appropriation responsibility over the Department of Homeland Security. We will
post the report on our website for public dissemination.

Should you have any questions, please call me, or your staff may contact Carlton I.
Mann, at (202) 254-4205.

Attachment
Background

Within the Department of Homeland Security (DHS), Immigration and Customs
Enforcement (ICE) is responsible for apprehending, detaining, and deporting individuals
who are not authorized to remain in the United States. Children who enter ICE custody
require different treatment than adult detainees. ICE must ensure that they are not
detained with unrelated adults and that they receive specified treatment and provisions
while in custody. Unaccompanied alien children-individuals determined to be less than
18 years of age who are unlawfully in the United States without a parent or other legal
guardian-must be transferred to the Department of Health and Human Services (HHS),
Office of Refugee Resettlement's (ORR) custody within 72 hours of determining such
children are unaccompanied, to await deportation or transfer to a legal guardian in the
United States. 1

To separate unaccompanied children from adult's in ICE custody, ICE attempts to
establish the date of birth for any apprehended person not readily identifiable as an adult
or child. In those instances, ICE relies on various forms of information for age
determination purposes, including interview statements and documentation such as birth
certificates. When ICE officials have difficulty determining whether an individual is a
child or an adult, they may also obtain a professional medical opinion based on dental or
skeletal radiographs, commonly referred to as x-rays, to help make an age determination.
ICE's use of radiographs, however, has been criticized as unreliable by some in the
medical and advocacy communities.


Results of Review

Use of Radiographs for Age Determinations Needs To Be Better Tracked

To obtain a radiograph-based age estimation for a potential juvenile in custody, ICE uses
medical or dental services outside of its network of detention facilities. ICE field
personnel submit a Treatment Authorization Request (TAR) to ICE's Division of
Immigration Health Services (DIHS) in Washington, DC. DIHS managed care
coordinators generally review and approve the request within 24 hours. A TAR can also
be submitted and approved retroactively when needed to allow ICE to make an
immediate decision on an individual's age and, subsequently, the appropriate detention
setting.

From January to April 2010, ICE reported 43 requests for age determination radiographs,
of which 2 were canceled. While DIHS can account for the number of TARs submitted
for radiographs, ICE does not record the number oftiines that a radiograph was actually
used in its age determination, and the resulting custody decision. ICE also does not track

1 Homeland  Security Act of2002 (Public Law 107-296), November 25,2002. See also, The William
Wilberforce Trafficking Victims Protection Reauthorization Act of2008 (Public Law 110-457) December
23,2008.


                                                  1

when the age determination and placement of an alien is reversed. Tracking such
information could improve ICE's ability to evaluate age determination practices,
including reversed age determinations and custody decisions involving radiographs,
calculate the error rate of such decisions, and adjust policies accordingly. Such
information could also help generate cost data on exams conducted each fiscal year and
guide future decisions concerning the medical service providers ICE uses for age
determinations.

In our initial report, we recommended that the Assistant Secretary for ICE-

        Continue to enhance the Juvenile and Family Residential Management Unit's
        (JFRMU) ability to collect and analyze data on the use of radiographs for age
        determinations. At a minimum, enhancements should provide JFRMU with the
        ability to track (1) the number of radiographs taken for age determinations, (2)
        date the results of the exam, and (3) age determinations and placement decisions
        that were later reversed.

ICE concurred with our recommendation. In its August 2010 Mission Action Plan
(MAP) update, ICE indicated that multiple updates to the Enforcement Case Tracking
System will be made by November 2010.

Guidance for Age Determinations Needs To Be Updated

ICE guidance on making age determination and custody decisions was issued in 2004.
The guidance lists a range of factors that may be considered, addresses the limits of
radiographs in a comprehensive manner, and cautions officers not to make decisions
based solely on radiographs.

The William Wilberforce Trafficking Victims Protection Reauthorization Act of2008
(TVPRA) includes language that charges the Secretary ofHHS, in consultation with the
Secretary ofDHS, with developing age determination procedures. According to the law,
DHS is required to follow those procedures. While the TVPRA does not set forth
particular guidelines for making age determinations, it does allow the "nonexclusive use
ofradiographs.,,2 HHS ORR, which oversees the placement of unaccompanied alien
children, released program instruction on age determinations in March 2009; the acting
director ofHHS ORR signed this guidance on September 15, 2009.

In our initial report, we recommended that the Assistant Secretary for ICE-

        Update and release guidance that clarifies how the Office of Detention and
        Removal Operations, recently renamed Enforcement and Removal Operations,
        field officers are to conduct age determinations following the TVPRA based on
        HHS' guidance. ICE field guidance should be consistent with HHS' procedures,


2 The William Wilberforce Trafficking Victims Protection Reauthorization Act of2008 (Public Law 110­
457) December 23,2008.


                                                   2
       address challenges, identify best practices for establishing age, and include
       requirements for documenting the age determination process.

ICE concurred with our recommendation to update field guidance on age determinations
and related custody decisions, but has not issued an updated version in response to HHS'
signed program instruction. Before our initial report's publication, ICE indicated that it
is waiting for HHS to release a final policy on age determinations, and did not
acknowledge HHS' program instruction as final. Also, ICE has drafted guidance that
generally mirrors the HHS/ORR guidance. ICE's guidance is under review.

ICE Field Staff Would Benefit by Distributing a "Best-Qualified" Providers List

While we did not question the actual age estimations of medical or dental professionals in
our original report, we noted inconsistencies in how exam results were reported to ICE.
Supporting data and studies cited by those providers varied in their depth and
applicability to the different ethnicities of the individuals receiving the exam. Moreover,
during our initial review, ICE officers were not always certain ofthe type of medical or
dental professional who should be consulted when an individual's age is in question.

Certifications and other credentials beyond standard medical or dental degrees can help
ICE identify medical or dental providers who are most knowledgeable about making age
estimations, as well as the limitations of this practice.

In our initial report, we recommended that the Assistant Secretary for ICE-

       Release guidance on the selection of "best-qualified" practitioners to conduct
       radiographic exams and report results when practical.

ICE concurred with the recommendation, and indicated that it would work with DIHS to
develop such guidance. The August 2010 MAP indicates that ICE has developed draft
guidance, which is under review by DIHS. ICE expects to release a final version by
December 31,2010.

Management Comments and OIG Analysis

We obtained written comments on a draft of the report from the ICE Acting Deputy Chief
Financial Officer. We have included a copy of the comments in Appendix B. The
Acting Deputy Chief Financial Officer reiterated ICE's commitment to close our initial
report's recommendations by the dates identified in its MAP.




                                             3

Appendix A
Purpose, Scope, and Methodology


We conducted this review at the request of the House Appropriations Committee and
House Report 111-157 to review ICE practices for detennining the age of those in its
custody and report any cases where ICE used bone or dental forensic examinations. We
interviewed and held discussions with ICE and HHS officials, reviewed relevant
documents, and analyzed ICE's MAP. We conducted our fieldwork from April to June
2010.

This review was conducted under the authority of the Inspector General Act of 1978, as
amended, and according to the Quality Standards for Inspections issued by the Council of
the Inspectors General on Integrity and Efficiency.




                                           4

Appendix C
Major Contributors to this Report

                    Deborah Outten-Mills, Chief I!!spector
                    Andrew Schmidt, Senior Inspector




                                         7

Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff of Policy
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      DHS Component Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                            8

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
